CERTIFICATE OF SERVICE
NO. TBD
Peter R. Rumbin
Petitioner(s)
v.
Arne Duncan et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the PETER
R. RUMBIN PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Noel J. Francisco
Solicitor General of the United States
950 Pennsylvania Ave., N.W.
Room 5616
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for Arne Duncan, Timothy Geithner
and Successors

Patrick M. Noonan
Donahue, Durham & Noonan, PC
741 Boston Post Road
Suite 306
Guilford, CT 06437
(203) 458-9168
pnoonan@ddnctlaw.com
Counsel for Beth Harris

Lucas DeDeus

March 3, 2020
SCP Tracking: Grudberg-114 Laurel Crest Road-Cover White

